Supreme Court, U.S.
FILED

WAIVER

JAN 0 4 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-845

Donald J. Trump for President, Inc.

Kathy Boockvar, Secretary of Pennsylvania, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

E There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Delaware County Board of Elections
I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

1/4/2021

(Type or print) Name

Edward D. Rogers
E Mr.

0 Ms. 0 Mrs. 0 Miss

Ballard Spahr LLP
1735 Market Street, 51st Floor
Address
Philadelphia, PA
City & State
Firm

Phone 215-864-8144

Email

Zip

19103

rogerse@ballardspahr.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: John Eastman, Esquire

RECEIVED
JAN - 7 2021

OFFICE OF THE CLERK
SUPREkiE COURT US.

